No.

 

 

dn the
Supreme Court of the United States
Dires, LLC,
Scott STENZEL, AND CRAIG MILLER,
Petitioners,
vs.

SELECT COMFORT CORPORATION AND

SELECT COMFORT SC CORPORATION,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Petition for a Writ of Certiorari were served
on the persons listed below on the 11th day of August,
2021, by depositing them with the United States Post
Office, with First Class Postage prepaid.
Andrew S. Hansen
Heidi A.O. Fisher
Elizabeth A. Patton

FOX ROTHSCHILD LLP
222 South Ninth Street
Suite 2000

Minneapolis, MN 55402
(612) 607-7000

Counsel for Respondents Select Comfort Corporation, Select
Comfort SC Corporation

Barbara Podlucky Berens
Carrie L. Zochert

Erin K. Fogarty Lisle
BERENS & MILLER, P.A.
3720 IDS Center

80 South Eighth Street
Minneapolis, MN 55402
(612) 349-6171

Counsel for District Court Defendants John Baxter,
Digi Craft Agency, LLC and Direct Commerce, LLC
(doing business as Person Touch Bed)

Stephen M. West

Subscribed and sworn to before me this 11th day of
August, 2021.

we

Zz

/ a NOTARY PUBLIC - MINNESOTA
Notary Public sez My Commission Expres Jan. 31, 2025
zee

 
